THE COMMONWEALTH OF MASSACHUSETTS
OFFICE OF THE ATTORNEY GENERAL
ONE ASHBURTON PLACE
BOSTON, MASSACHUSETTS 02108
(617) 727-2200
(617) 727-4765 TTY
www.mass.gov/ago

March 20, 2020
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re: Capron v. Office of the Attorney General of the Commonwealth of Massachusetts,
No. 19-1031
Dear Mr. Harris:
I represent Respondents the Office of the Attorney General of the Commonwealth of
Massachusetts and Attorney General Maura Healey in the above-captioned case.
Petitioners filed a petition for writ of certiorari on February 14, 2012. Respondents
intend to file a brief in opposition, which is currently due on March 16, 2020, according to the
Court’s docket. Pursuant to Rule 30.4, I respectfully request a 32-day extension of that deadline
to and including May 18, 2020.
This requested extension will ensure sufficient time to fully analyze and respond to the
arguments raised in the petition and amicus briefs that Respondents expect will be filed in this
matter. Petitioners consent to this request.
Sincerely,

Robert E. Toone
cc:

Paul D. Clement
Counsel for Petitioners

